                                 --                 NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM


 .   Case Number: A03060038                                                                    Page 1 of 1



           On 26 June 2003, we received an allegation that the subject1inappropriately used ideas and data
           from an earlier Collaborative NSF proposal (the earlier proposal)2in his recent Collaborative
           NSF proposal (the recent proposal).3 Further, the subject allegedly used these same data from the
           earlier proposal in presentations at meetings without the other earlier proposal's PIS' permission.

          We determined that the earlier proposal was submitted jointly by three PIS including the subject.
          Following the earlier proposal's declination, the subject jointly submitted the recent proposal
          with one of the original PIS (PI # I ) . ~We noted that the recent proposal was modified, excluding
          ideas specifically associated with another of the original PIS (PI #2) in the earlier proposal. PI
          #2 was not included in the recent proposal. Further, PI #2 stated that it was PI #1 who developed
          the central ideas and data used in the earlier proposal. We also learned that PI #2 was not aware
          that PI #1 was included in the recent proposal. Finally, the earlier proposal had been submitted
          jointly as a collaborative effort in which the subject and PIS #1 and #2 shared their ideas and
          data. Consequently, the subject and PI #1 could use this shared information from the earlier
          proposal in the recent proposal without PI #2's permission. There is no substance to the
          allegation that the subject submitted the recent proposal, using ideas and data taken
          inappropriately from the earlier proposal.

           Similarly, the alleged use of these same data from the jointly submitted earlier proposal without
           permission from the original PIS is without substance because the data in the earlier proposal
           were shared property as a result of this submission.

           This case is closed and no further action will be taken.




I'
 NSF OIG Form 2 (1 1/02)
